Pillsbury Winthrop Shaw Pittman LLP
1200 Seventeenth Street, NW | Washington, DC 20036 | tel 202.663.8000 | fax 202.663.8007

David F. Klein
tel: +1.202.663.9207
david.klein@pillsburylaw.com

January 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

United States v. Husayn, et al., No. 20-827
Respondents’ First Request for Extension of Time to Respond to
Petition for Certiorari

Dear Mr. Harris,
The petition for writ of certiorari in the above-captioned case was filed on
December 17, 2020 and placed on the Court’s docket on December 18, 2020.
Respondents’ response is currently due on January 19, 2020.
Respondents respectfully request, under Rule 30.4 of the Rules of this Court,
an extension of time to and including February 11, 2020 within which to file their
response. The extension is necessary because the attorneys responsible for preparing
Respondents’ response have been engaged with the press of other matters and require
additional time to draft the response.
Counsel for the United States does not object to this request. This is the first
such request made by Respondents.
Sincerely,

David F. Klein
cc:

See attached Certificate of Service

www.pillsburylaw.com

